NO.

IN THE
Supreme Court of the United States

RICKY HAYWOOD-WATSON,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.2(b), I certify that the petition for a
writ of certiorari contains 24 pages, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 11, 2021.
%)

RICKY HAYWOOD-WATSON
PETITIONER

